<html>
<title> - REVIEWING INTERNATIONAL CHILD ABDUCTION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                REVIEWING INTERNATIONAL CHILD ABDUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2018

                               __________

                           Serial No. 115-173

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        



Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                    or http://http://www.govinfo.gov              
                    
                               
                                 
                              _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-668 PDF                 WASHINGTON : 2018                              



                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jeffery Morehouse, executive director, Bring Abducted 
  Children Home..................................................     5
Mr. Juan Garaicoa, father of two children abducted to Ecuador....    24
Ms. Michelle Littleton, mother of three children abducted to 
  Lebanon........................................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jeffery Morehouse: Prepared statement........................    14
Mr. Juan Garaicoa: Prepared statement............................    31
Ms. Michelle Littleton: Prepared statement.......................    41

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statements submitted for the record.............    58


                REVIEWING INTERNATIONAL CHILD ABDUCTION

                              ----------                              


                       MONDAY, DECEMBER 10, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The committee will come to order.
    First of all, let me begin by thanking all of you for 
joining us this afternoon to discuss the continuing crisis of 
international parental child abduction and how the Trump 
administration can and must use current law, especially the 
tools embedded in the Goldman Act, to more aggressively bring 
children home to their families.
    I especially want to thank the brave left-behind parents in 
this room, and hundreds of others who are here in spirit, for 
tenaciously struggling to recover their child or children from 
an abduction.
    The deleterious physical and psychological impact on 
abducted children, including parental alienation, coupled with 
the pain and agony endured by a left-behind parent from a 
forced, illegal, and inhumane abduction, demands more effective 
U.S. Government action.
    Today we will hear from three extraordinary parents who 
have left no stone unturned in a noble quest of bringing their 
kids home. Out of deep love and concern for the safety and 
well-being of their children, all three parents--Jeffery 
Morehouse, Juan Garaicoa, and Michelle Littleton--continue to 
strive and to hope and to believe.
    All three parents, and far too many others like them, daily 
endure the absolute nightmare of having had their beloved 
children kidnapped and taken to a foreign land. We can and we 
must do better.
    As Jeffery Morehouse notes in his testimony, to date there 
have been more than 400 U.S. children kidnapped to Japan since 
1994. To date, the Government of Japan has not returned a 
single American child to an American parent.
    He notes that the last time that he hugged his son, ``the 
last time I heard his voice was Father's Day 2010. I love you, 
Mochi, wherever you are,'' he said. ``Our kidnapped children's 
true voices,'' he goes on, ``have been silenced.'' And he 
speaks on behalf of many other left-behind parents and that 
they need to be heard.
    Child abduction is child abuse and it continues to plague 
thousands of families across the United States. Each year more 
than 450 new children are abducted, adding to the 11,000 
children who were abducted internationally between 2008 and 
2017.
    The good news: Since Congress adopted legislation that I 
wrote in 2014, the Sean and David Goldman International Child 
Abduction Prevention and Return Act, Public Law 113-150, we 
have seen a huge reduction in the number of new abductions each 
year. In fact, 450 is half the number of just 10 years ago.
    According to the State Department's Annual Report on 
International Child Abductions for 2018, the State Department's 
Prevention Team has been working with the Department of 
Homeland Security, as directed by the Goldman Act, to protect 
vulnerable children from abduction. Last year, 210 very high-
risk children were enrolled in the DHS prevention program, an 
increase of 60 percent over 2016.
    We have also seen some high profile Federal criminal 
prosecutions of taking parents and their accomplices, such as 
the prosecution and conviction of Carlos Guimaraes and his wife 
Jemima for assisting with the kidnapping of their grandson Nico 
Brann to Brazil 5 years ago.
    These prosecution efforts of the DOJ and FBI are incredibly 
important, not only for holding the perpetrators accountable 
and for driving home the seriousness of international child 
abduction, but also for deterring future abductions.
    Ask anyone who works in the field or any left-behind parent 
and they will tell you that international child abductions are 
very difficult to resolve, even with the 77 countries that have 
partnered with the United States in the Hague Convention on the 
Civil Aspects of International Child Abduction. Two hundred and 
fifteen children came home last year. Every return is a hard 
won celebration and should not be minimized.
    But every case resolved without return must be scrutinized 
and aggressively so; 197 cases were closed without return. Did 
the parent agree to let the child stay abroad because they 
could not afford the financial or emotional cost of fighting in 
a foreign court for years on end? Did the foreign court 
expansively read the Hague Convention exceptions to return so 
that living in an apartment counted as a ``grave risk of 
harm,'' such as Japan's courts held in the Cook family case, 
which is absurd?
    The Hague Convention was intended to minimize trauma to 
children and left-behind parents, returning children to their 
home country for custody determinations and to do so quickly. 
But it is regularly flouted without consequence to the 
violating country.
    Tragically the State Department has persistently refused--
and this is the bad news--persistently refused the use of 
return tools that are in the Goldman Act as envisioned by 
Congress to enforce the Hague Convention in both Hague and non-
Hague countries and to move non-Hague countries to bilateral 
resolution agreements with the United States.
    A 42 percent return rate of American children within 2 
years of abduction--and that is the rate--cries out for 
immediate and systemic improvement. We can and we must do 
better.
    The Goldman Act of course empowers the Secretary of State 
with significant sanctions, including the authority to 
withdraw, limit, or suspend U.S. development, security, or 
economic support assistance; to delay or cancel one or more 
bilateral working official or state visits; to extradite the 
taking parent, which puts pressure on the parents to return the 
child; to come up with their own actions that would have a 
positive effect; and many other prescribed actions that are in 
the Goldman Act.
    To my knowledge, extradition has been used once and the 
other options not at all. That has got to change.
    At a Senate hearing April 24 of this year, Assistant 
Secretary of the Bureau of Consular Affairs Carl Risch 
testified that the State Department ``considers all the tools 
the Goldman Act provides for the most effective way to make 
progress with particular countries.''
    However, more than 2,000 cases after the Goldman Act was 
signed into law, the State Department has apparently never 
found a single case where those tools would be helpful, not 
even in the cases where the foreign courts had decided on 
return, but just failed to enforce those orders.
    Devon Davenport has won all 24 appeals over the last 9 
years for return of his daughter Nadia from Brazil--and yet she 
is still not home. Dr. Brann has been waiting for 5 years for 
the return of his son Nico from Brazil.
    We have 100 American children abducted to India with almost 
no hope of return without the United States choosing to take 
real action. And again, those actions are in our law, they are 
in the Goldman Act. Use them, Mr. President. We could also 
lower the number of visas available to Indian citizens until 
abducted children are returned, another opportunity to get this 
right.
    While Japan was finally named a noncompliant country by the 
Trump administration in this year's annual report, after having 
just about nothing done in the previous administration on 
Japan, Japan is still not held accountable for the dozens of 
cases that were pending before it signed the Hague Convention 
in 2014. And Jeffery will talk about that in his testimony.
    But what a dark day that was. They signed the Hague 
Convention, which maybe opens up the door to some cases from 
then on, but all the cases that preceded ratification of the 
Hague Convention are grandfathered out. What a gross injustice.
    Marine Corps Sergeant Michael Elias suffered the abduction 
of his two children to Japan. In 2008, after courts in New 
Jersey decreed shared custody and no travel for the children, 
Japan gave the children replacement passports to facilitate the 
abduction. Sergeant Elias has not been able to speak to his 
children in 10 years.
    I actually traveled with my chief of staff to Japan to 
raise his and other cases, and I was shocked, frankly, about 
what we were not doing to help this combat war veteran at least 
see his children and hopefully to bring his children home.
    I believe the Trump administration can and must do better 
with the backing of the Hague Convention, bilateral agreements, 
and requests for cooperation in return of abducted children, 
and with the actions described in the Goldman Act. We can and 
we must do better. The time is now. Delay is denial.
    And for these three parents and so many others like them, 
the agony is every day, every day, and then every day. And we 
need to change that and we can change it with our law.
    I would like to yield to Mr. Garrett for such time as he 
may consume.
    Mr. Garrett. Thank you, Mr. Chairman. I am going to waive 
and reserve time later.
    Ms. Smith. Thank you very much.
    I would like to now yield to the gentleman, Mr. Posey.
    Mr. Posey. Thank you very much, Chairman Smith, for 
recognizing the problem that we have today and for holding this 
important hearing and for allowing me to join you in your 
discussion and your questions.
    I am proud to represent Michelle Littlejohn, one of the 
three witnesses here today. Ms. Littlejohn's three beautiful 
children, two daughters and a son, Ascila, Leilah, and Yousef, 
were tragically abducted by her former husband to Lebanon 
nearly 2 years ago. She has worked tirelessly to litigate their 
return in Lebanese courts and has won remarkable, landmark 
decisions that have essentially established her case to return 
the children. Yet she waits.
    I must defer to her with great respect to tell you the 
entire store and commend her for the brave struggle. Ms. 
Littleton's testimony and that of the other witnesses here 
today suggest that we need to look, as you said, more closely 
at ways to improve our Government's support of parents who face 
abductions and retentions.
    As you mentioned so eloquently in your opening statement, 
Mr. Chairman, Congress passed the Goldman Act to empower the 
State Department with tools or sanctions to discipline 
countries who enable abductions and retentions.
    I understand that you invited the State Department to 
participate with us today, and I must say that I am very 
disappointed that we don't have any State Department officials 
here today to testify on how we can work together to strengthen 
our support for the brave parents, like Ms. Littleton.
    I follow the travels and the work of our Secretary of 
State, who clearly, obviously, gives that job absolute 100 
percent. And I just can't tell you how I am disappointed that 
none of the other 60,000-plus employees of the doggone 
Department could not find time to show up today and participate 
in this important hearing that you have called. I am very 
disappointed and maybe I may bring that to the attention of the 
Secretary.
    These are doubtless difficult circumstances when a child 
abduction intersects with our foreign relations, but we must 
try to do better.
    And again, Chairman Smith, I want to thank you for holding 
this important hearing and allowing me to participate. I yield.
    Mr. Smith. Thank you very much.
    I would like to now introduce our three outstanding 
witnesses, noble parents who are fighting for their children, 
beginning with Jeffery Morehouse, who is the executive director 
of Bring Abducted Children Home, or BAC Home, a nonprofit 
organization dedicated to the immediate return of 
internationally abducted children being wrongfully detained in 
Japan.
    Bring Abducted Children Home strives to end Japan's human 
rights violation of denying children unfettered access to both 
parents and works to increase public awareness through 
community outreach on international parental child abduction.
    His son, Mochi, remains kidnapped in Japan, despite Mr. 
Morehouse's U.S. Sole custodial order being recognized by the 
courts in Japan in both 2014 and 2017. He is also a founding 
partner in the Coalition to End International Parental Child 
Abduction and the G7 Kidnapped to Japan Reunification Project.
    We will then hear from Juan Garaicoa, who is the father of 
two boys, Mateo and Martin, who were abducted to Ecuador in 
August 2016. Mr. Garaicoa decided to start his own independent 
financial advisory practice in 2004, the year Mateo was born. 
His independent financial advisory practice allowed him to 
fulfill his commitment to spend more time with his children. 
Previously he worked for a select number of investment banks in 
New York and Miami. And he is here today to make that appeal 
for his two children, and we are grateful he is here.
    Then we will here from Michelle Littleton, who is the 
mother of three children, Ascila, Leilah, and Yousef, who were 
abducted to Lebanon on January 4 of 2017. After her children's 
abduction, Ms. Littleton moved from California to Florida to be 
with her family.
    She was hired as an administrative assistant to the 
director for launch operations at Cape Canaveral Air Force 
Station as a contract hire for United Launch Alliance. Ms. 
Littleton was also selected as an Ambassador to the United 
States Launch Alliance.
    Previous to her current position, she worked at a 
commercial real estate company, but put her real estate career 
on hold in order to pursue and try to bring back her children.
    Ms. Littleton awaits the day when she is reunited, and has 
rooms furnished and decorated in her home on Merritt Island in 
Florida for the day when they come home.
    Mr. Morehouse, the floor is yours.

 STATEMENT OF MR. JEFFERY MOREHOUSE, EXECUTIVE DIRECTOR, BRING 
                     ABDUCTED CHILDREN HOME

    Mr. Morehouse. Thank you, Mr. Chairman and to the 
committee, for inviting me here to share my expertise and my 
personal experience on the ongoing crisis and crime of 
international parental child abduction in Japan.
    Japan is internationally known as a black hole for child 
abduction. To date, as you mentioned, there have been more than 
400 U.S. children kidnapped to Japan since 1994, and the 
Government of Japan has not returned a single American child to 
an American parent.
    Over the years, many Japanese citizens and officials have 
shared with me that they are deeply ashamed of these abductions 
and need help from the U.S. and other countries to change it. 
They have asked for continued public, foreign pressure as it 
gives them the support needed internally to uproot this cabal 
of resistance in Japan that continues to corrupt the family 
court system there.
    This has revealed itself in what is called the Continuity 
Principle, or simply put, judges and attorneys representing 
abductions and abductors, and they manipulate the best interest 
of the child to rule that the child should remain alienated and 
ignore how they ended up with the abducting parent.
    When Japan acceded to the Hague Convention on the Civil 
Aspects of International Parental Child Abduction on April 1, 
2014, you, Mr. Chairman, joined us as we met with the Japanese 
Ambassador and officials at the Embassy to discuss their plans 
for implementation. And I remember walking out of that meeting, 
knowing that our worst fears had been realized. They had no 
real plan to uphold the spirit and the intent of the Hague 
Abduction Convention. It was all misdirection, all smoke and 
mirrors. What we foresaw then remains true today.
    Under Article 21, and I am quoting here, it says,

        ``The Central Authorities are bound . . . to promote 
        the peaceful enjoyment of access rights and the 
        fulfillment of any conditions to which the exercise of 
        those rights may be subject. The central authorities 
        shall take steps to remove, as far as possible, all 
        obstacles to exercise such rights.''

    In the first known case to pursue Hague access rights in 
the Japanese courts, Canadian Henrik Teton requested interim 
access to his children and was ignored by the court. The judge 
refused to provide his name, therefore making accountability in 
these rulings impossible. No observers, no Embassy officials 
were allowed to witness the court proceedings.
    Four and a half years ago, at the very moment Japan acceded 
to the Hague Abduction Convention, parents joined Bring 
Abducted Children Home to hand deliver 30 Article 21 Access 
applications. Hague was supposed to be an efficient path to see 
our children again. We were told at that time we must give 
Japan time, we must wait and see.
    Well, we have waited and we have seen. Of those 30 cases, 
three parents reported receiving one Skype session with their 
children and one reported three sessions before the kidnapping 
parents cut them off entirely. None of these parents have 
received true unfettered access to their kidnapped children.
    When I personally filed for access under Article 21, my ex-
wife responded by filing a new motion for custody in Japan, 
citing my Hague application and weaponizing it against me. I 
had to put my application on hold for 3 years. After winning my 
case in Japan in 2017 and attempting to restart efforts for 
access, she has been nonresponsive.
    In consultation with the Japanese Central Authority, the 
Office of Children's Issues is again encouraging me to file an 
Article 21 motion in the Japanese courts. This is grossly 
flawed. As I will state later in my testimony, Japan now admits 
that all the power to comply with court rulings rests with the 
kidnapper.
    Japan's implementation of the Hague Abduction Convention is 
an abysmal failure. Hague return orders have failed to be 
enforced time and again, although it states under Article 7, 
and I will quote again, ``Central Authorities shall cooperate 
with each other and promote cooperation amongst the competent 
authorities in the respective states to secure the prompt 
return of children.'' The prompt return of children. It doesn't 
state the optional return of children.
    Japan fails miserably here, too. The enforcement of the 
return orders fails every time, unless the kidnapping parent 
willingly complies. In Japan an enforcement involves an 
official going to the home and asking for the children to come 
out while the kidnapping parent remains inside prompting them 
to stay and holding all power over those children.
    For James Cook, as the chairman mentioned, who testified to 
this subcommittee in April, Japan's courts overturned the 
return order because Mr. Cook had moved into an apartment and 
had to share a bedroom with his sibling after the enormous 
legal bills incurred from years of fighting in the Japanese 
courts. He took his case all the way to the Supreme Court of 
Japan and the Hague Convention failed again there.
    Laws and treaties are being ignored. Mr. Cook's children 
remain abducted, with the kidnapping parent. This is just 
another example of Japan's Continuity Principle at work and it 
crushes any hope of reuniting with our kidnapped children.
    According to my discussion with the State Department, Mr. 
Cook's case would now be classified as a judicial resolution 
under their interpretation of the Goldman Act. In other words, 
Japan gets rewarded for finding a way to avoid returning 
children that are kidnapped from the United States.
    Another example of Japan's systemic failure to return 
kidnapped children involves two Japanese parents that were 
living in the United States. I point this out because it is the 
second time that a case involving two Japanese parents received 
extrajudicial effort that I have not yet seen in cases 
involving a non-Japanese parents.
    Like in the Oregon case that ended in 2016, the enforcement 
of the Hague return order failed. In this new instance, a 
Japanese form of habeas corpus petition was filed in the Nagoya 
High Court, but it was not awarded.
    So the father appealed to the Supreme Court in Japan, which 
issued a ruling in March 2018, and they wrote four significant 
points in that: The child was found to be unduly controlled and 
influenced by the mother. The second point, therefore the 
child's statement was not considered to be objective. The 
Supreme Court in Japan determined that the retention of the 
child was clearly illegal.
    And then the Japan Supreme Court remanded the case back to 
the Nagoya High Court, the lower court. In effect, the Supreme 
Court issued an opinion, but they didn't issue a return based 
on habeas corpus which evolved out of this failed Hague 
process.
    Now, in July 2018 the Nagoya High Court issued a new ruling 
in the case. This time the child was ordered returned, but the 
mother and the child immediately fled the court. It can be 
assumed that the Government of Japan, the courts, her 
attorneys, and the police know exactly where the mother and the 
child are, but the enforcement of the return order remains to 
be executed.
    In 2014, the Goldman Act was signed into law in part to 
create accountability for countries like Japan that fail to 
return our kidnapped American children. Multiple tools were 
provided--a demarche; an official public statement; a public 
condemnation, denial, or cancellation of official meetings or 
state visits; the withdrawal, limitation, or suspension of U.S. 
assistance; and a formal request to extradite the kidnapping 
parent.
    To date, only demarches have been issued. All other tools 
have been ignored, while we still don't have a single case of 
the Government of Japan returning an American child to an 
American parent.
    In April, the Senate Judiciary Committee took this topic up 
at a hearing. Senator Booker asked, and I will quote, ``Are we 
using the tool in the Goldman Act, beyond demarches?'' 
Assistant Secretary Carl Risch of Consular Affairs responded, 
``Not to my knowledge.''
    Chairman Grassley inquired, ``How many demarches have been 
issued since the passage of the Goldman Act?'' Mr. Risch: 
``There have been many, but we feel that type of diplomatic 
engagement is the key to success in these cases.''
    Senator Blumenthal probed, ``Have you used any other 
tools?'' Mr. Risch concedes they have not.
    In response to the committee's follow-up questions for the 
record, Assistant Secretary Risch responded that, from 2008 to 
2015, 9,127 children were kidnapped and only 3,992 were 
returned. There was no substantial change in the percentage in 
those 8 years. Some years it went up a few points, some years 
it went down.
    If returning kidnapped children home to the United States 
as the key measure of success--and it is--that would point to a 
failure in strategy, not success.
    This subcommittee in April also held a hearing that 
examined the lack of use of the tools. And at the hearing, 
Chairman Smith, you noted that since 2014 we have seen a 
decrease in the number of new abductions, but not an increase 
in the percentage of returns, and you noted that in your 
opening statement as well.
    Special Advisor for Children's Issues Suzanne Lawrence 
testified, and I will quote from her,

        ``We do consider all the tools we have at our disposal, 
        and we do that with our interagency partners, and try 
        to use the best tool at the best moment on a case-by-
        case basis. We consider them when we think they will be 
        effective.''

    Congresswoman Jayapal followed up,

        ``What would move the threshold in order to use those 
        tools? What can we tell our families about what we are 
        going to do differently than we have been doing now?''

    Ms. Lawrence replied,

        ``I don't have a specific answer for you on what the 
        threshold is.''

    Congressman Harris commented,

        ``Is it going to take literally an act of Congress and 
        an appropriations bill to get you ramped up through the 
        escalating sanctions that can occur in some of these 
        countries that the State Department has been unwilling 
        to pursue?''

    And Chairman Smith, you hit it right on the mark:

        ``Sanctions work. If Japan doesn't get it through your 
        persuasion--and I thank you for trying so hard--it is 
        time to lower the boom!''

    And the State Department's response to those hearings was 
to ignore Congress' call to use the tools.
    A comprehensive review of all four actions reports from 
2015 to 2018 shows a very bleak pattern. Many of these 
countries cited are repeat offenders, yet no other tools, other 
than a demarche, was utilized. Japan had three demarches in 
2017 alone. In fact, other tools were only mentioned one time.
    The 2018 actions report claimed, the Department wrote, 
``The Department is considering the use of further tools under 
the Act if Japan continues its pattern of noncompliance in 
failing to promptly enforce Convention court orders.''
    In an open session of the Diet in Japan in early 2017 the 
Japanese Foreign Minister at the time, Fumio Kishida, declared 
there is not a single example of sanctions under the Goldman 
Act. He called them out. He called the State Department's 
bluff.
    Through multiple hearings in the House and the Senate, the 
State Department has rejected your calls, Congress' calls, to 
use the tools. Clearly, demarches, raising IPCA cases with 
foreign government officials, and empty threats are not 
bringing children home.
    And what are these demarches? What is in them? Does anyone 
really know? I am still waiting for a response to a FOIA 
request that our organization submitted in February.
    What is it going to take beyond demarches? When are the 
interests of American children that have been kidnapped going 
to be put first? And when will decisive efforts be made to 
bring abducted children home?
    Based on multiple discussions with State, it is clear that 
Japan anticipated being cited under the Goldman Act in 2018 
starting at least 6 months in advance. There was a demarche in 
November 2017 and December. Japan knew what was coming and they 
were preparing to spin their way out of it.
    On May 15, 2018, as Japan was about to be cited for 
international parental child abduction by the United States, 
they held a public seminar at the House of Culture in Japan in 
Paris, co-organized by the Ministry of Foreign Affairs of Japan 
and the Japan Federation of Bar Associations. In an audio 
recording of this event from inside we hear participants being 
educated about the Hague Abduction Convention. They are taught 
how to prevent having their children returned to France, should 
they be taken without consent to live in Japan. More simply 
put, the organizers lay out how to abduct to Japan and get away 
with it.
    By creating a seminar that advised potential abductors how 
to circumvent a Hague return order, the Government of Japan has 
exhibited a shocking and blatant disregard for this 
international agreement. When they were exposed and confronted 
by French Senator Richard Yung, Japan's Ministry of Foreign 
Affairs tried to deflect it as a rogue act by a presenter they 
invited.
    Now, if that were true, somebody from the Japanese 
Government staff would have immediately interrupted at the 
seminar and disavowed their government of this. They would have 
denounced it right then and there. They didn't do that. Because 
it wasn't a rogue act. It was intentional. The Government of 
Japan is a shameless co-conspirator.
    I will note that seminars continue to be held and there is 
little reason to believe that the content has changed. There 
was one scheduled in London and I believe there was another one 
scheduled in New York.
    In June of this year, just after Japan was cited by the 
United States, their press reported potential draft legislation 
to purportedly address the child abduction issue. This was an 
attempt to change the narrative. It noted that there is nothing 
under Japan's legal system to deal with parents who refuse to 
hand over their children in defiance of a court order.
    The proposal in an interim report considered fining parents 
to encourage them to voluntarily comply. Now, fines and 
voluntary compliance already exist and they haven't solved the 
problem. Fines can be levied, they can be imposed, but they 
have to be collected and substantial enough to bend a 
kidnaper's will of defiance. That is a very narrow and unique 
set of circumstances. It is not a judicial or a legislative 
reform.
    As this potential draft limped along, in September it was 
reported in the press the rules now call for giving more power 
to enforcement officers and allowing handovers to take place in 
the presence of parents with custodial rights, on condition 
sufficient consideration is paid to the sentiment of the 
children.
    We have got to unpack this a little bit. It sounds good, 
but there are two immediate problems with it.
    First, a Hague case has to do with habitual residence, not 
custodial rights of the child. There could be a parent seeking 
a return order that might not have sole custody or the 
recognition of being the custodial parent in Japan or under 
Japanese law. It is habitual residence that we are dealing 
with.
    Second, what is it that they mean by sufficient 
consideration paid to the sentiment of the children? It is 
another loophole. What is the sentiment of a child going to be 
after they have been alienated for months or years? They are 
going to be filled with confusion, fear, anger, anxiety, all 
directed at the parent who is here to take them home. Is this 
``sufficient consideration'' going to dictate enforcement is 
still abandoned because the child appears more accustomed to 
living a life under duress?
    These are subversive efforts to give the false impression 
of progress in Japan. It is more smoke and mirrors.
    Though the State Department has put great hope in Japan's 
potential legislation, a recent discussion I have had with them 
reveals that they were working on a draft from the summer, not 
the current legislation--sorry, the current potential 
legislation. It is not even a bill yet. The current version, 
according to our partners, has gutted the bill and would be 
completely ineffective if it is ever passed in a year or years 
down the road.
    So don't be misled by reports in the Japanese press and 
from State Department meetings with the Government of Japan of 
sweeping legislative changes to improve our kidnapping crisis. 
Japan should not be rewarded with more time to fix problems 
that were exposed years ago. Let the kudos come after our 
kidnapped children are returned.
    In May, my colleague and I met with Japanese Embassy 
officials to try and better understand, is there any genuine 
path for Japan to reunite parents with kidnapped children? The 
Head of Chancery, which I think is essentially their number two 
person there, Mr. Takuya Sasayama, was shockingly candid to us. 
He said, ``Your access depends on the mother and the child's 
wishes.''
    In November the State Department met with officials in 
Japan at the Japanese Central Authority to again raise cases of 
American children kidnapped to Japan and the lack of progress 
and failures in enforcement of judicial rulings.
    Two weeks ago I received a comprehensive readout from the 
Office of Children's Issues on this, and there were three 
points I want to share with you. Japan acknowledged that, one, 
if the parent refuses there are no repercussions for ignoring 
an application for access, a return order, or a court order. 
Two, enforcing a court order depends on the voluntary 
cooperation of the kidnapping parent. And three, the kidnapping 
parent knows this and they hold all the power.
    Is this Japan's new tactic, admit the problem and blame the 
kidnapper?
    We need real solutions to the numerous clear-cut cases, 
such as Naval Captain Paul Toland and Paul Wong. Though they 
are both the only living parent, the grandparents in Japan are 
holding their daughters from them.
    There are cases like Randy Collins, whose ex-wife was 
ordered to surrender the child's passport to the court and 
instead she kidnapped him.
    Douglass Berg's children were kidnapped from their habitual 
and legal residence in the United States in 2009, violating his 
parental rights to access.
    Marine Corps Sergeant Michael Elias' two children were 
kidnapped to Japan after a U.S. court ordered no travel for 
those children.
    The list goes on and on, it is too far too long. All 
children and families crushed by the Government of Japan's 
unwillingness to uphold its moral, ethical, and treaty 
obligations. There are thousands of cases within Japan that 
must be remembered, too, in this process.
    In my own case, I was granted sole custody of my son in the 
State of Washington in May 2007. Three years later, on June 20, 
2010, I dropped my son Mochi Atomu Imoto Morehouse off to begin 
a weeklong visit with his mother. He was 6\1/2\ years old at 
the time. This is where my nightmare began.
    Six days later, I received a phone call that no parent ever 
wants to receive. It was the police. My son, my ex-wife had 
been reported missing. I knew immediately what had happened. 
She had succeeded in what she had been planning all along. She 
had kidnapped our son to Japan. At this moment my life had been 
shattered.
    I did everything I could to prevent this. There were 
passport and travel restraints in place. I had a court order 
that barred her from leaving the State of Washington with him. 
The Seattle Consulate of Japan had denied her passport request 
when she went there. And she simply went to the passport office 
at the Portland Consulate of Japan, which issued her one, in 
violation of Ministry of Foreign Affairs' own policy.
    Over the years people have said to me things like, ``At 
least you know he is safe with his mother.'' He might be 
somewhere in Japan, but he is not safe. He is at risk. He has 
been willingly and intentionally kidnapped to a foreign land, 
with the intent of alienating him from me and everyone he 
knows.
    Imagine being a small child and your mother steals you away 
to a foreign country and tells you your father doesn't want you 
anymore or he is dead. Your whole life is now built on a 
foundation of lies. This is not what a healthy, nurturing 
parent does. It is child abuse.
    In 2014, and again in 2017, I won another landmark ruling 
in Japan: The court declared my U.S. sole custody order has 
legal effect. My ex-wife has no legal custody rights in Japan, 
none. They also cited her admission of illegal acts of passport 
fraud and forgery.
    There was no intent to offer justice, though. It was simply 
the Continuity Principle at work again. It doesn't matter how a 
child ends up with an abductor, Japan will not uphold laws and 
treaties to return children to their rightful home.
    In the end, the court refused to even reunite Mochi and me. 
I don't even know where he is being held.
    Our kidnapped children's true voices have been silenced. 
They need to be heard. In the beginning of my most recent legal 
battle in Japan, my son, 13 at the time, was asked by his 
attorney, ``Do you ever think of your father?'' And he replied, 
``Sometimes I dream of him at night,'' as he cried, telling 
that lawyer.
    The last time I spoke to my son, the last time I saw him, 
was on Father's Day in 2010. I love you, Mochi, wherever you 
are.
    On behalf of the 66 children listed on the BAC Home Web 
site and those who have all been rendered voiceless by their 
abductors, for my fellow parents of internationally kidnapped 
children here today and watching all over the world who feel 
marginalized by the lack of active, engaged, transparent 
assistance in recovering our loved ones, I implore Congress to 
take strong, unified action toward Japan for its ongoing 
refusal to return our kidnapped children.
    For the past 2 years, Prime Minister Abe has spread it all 
over the press how President Trump and the U.S. are going to 
help Japan resolve the 1977 to 1983 kidnappings of 17 of their 
citizens kidnapped to North Korea. I feel for those parents. I 
understand their pain. It is our pain. And the U.S. should 
help, it is the right thing to do.
    President Trump ran on putting America first. Well, putting 
America first means putting America's kidnapped children first 
and bringing them home.
    Prime Minister Abe, what about returning the 400-plus 
American kids kidnapped to Japan since 1994? What about 
returning Mochi? The Government of Japan throwing their arms up 
in the air and saying it is up to the kidnapper is not 
acceptable. The Government of Japan is complicit here.
    Last week Secretary Pompeo said to the German Marshall Fund 
in Brussels, ``When treaties are broken, violators must be 
confronted and the treaties must be fixed or discarded. Words 
should mean something.'' How will Japan be confronted?
    In September the President addressed the United Nations and 
declared, ``We are standing up for America and the American 
people.'' Who is standing up for America's kidnapped children?
    Words must be backed up with actions so that Japan will 
recognize that enough is enough and the United States will not 
tolerate the ongoing kidnapping and retention of our citizen 
children.
    In Vice President Pence's press statement from his November 
trip to Japan, he stated to the Prime Minister that President 
Trump has made a commitment to ``speed up the sale of defense 
technology to Japan, and we are keeping that promise. Before 
the end of the year we will deliver 10 F-35s to Japan and 6 
more in 2019.''
    I urge Congress to take immediate action while the 
opportunity exists and block the sale of defense technology to 
Japan until our kidnapped children are returned to us. They 
have broken their treaty obligations.
    It is necessary to stand up for the American people here. 
Create this sanction. Please, stop the delivery of the F-35s. 
Tell the Prime Minister it is not acceptable to continue to 
hold my son Mochi Atomu Imoto Morehouse or any of the 400-plus 
American children kidnapped and retained in Japan.
    [The prepared statement of Mr. Morehouse follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                 ----------                              

    Mr. Smith. Mr. Morehouse, thank you very much for that very 
persuasive testimony on behalf of your son, as well as all the 
other left-behind parents who are being, I believe, cruelly 
mistreated by the Government of Japan. Thank you so much.
    We will now here from Mr. Garaicoa.

STATEMENT OF MR. JUAN GARAICOA, FATHER OF TWO CHILDREN ABDUCTED 
                           TO ECUADOR

    Mr. Garaicoa. Thank you, Mr. Chairman.
    Chairman Smith, Members of Congress attending this hearing 
today, on behalf of my two children, Mateo and Martin, I would 
like to thank you for giving me the opportunity to speak here 
at the United States Congress about international parental 
abduction and the Goldman Act to return abducted American 
children.
    It has been well documented that international parental 
abduction in most cases is not an act of love, but rather an 
extreme form of child abuse. Children who are victims of 
parental abduction usually have already gone through the pain 
of their parents' separation or relationship breakdown.
    Due to the unilateral decision of one of their parents, 
these children then face the trauma of suddenly losing contact 
with their mom or dad, the left-behind parent. Sadly, this is 
precisely the case of my two boys, Mateo and Martin, who have 
been deprived of any contact whatsoever with their dad for over 
2 years now.
    The effect of international parental abduction on children 
can be catastrophic. An essay published by the American Bar 
Association reports that, I quote:

          ``Children that are abducted for over 6 months 
        display severe psychological trauma and severe social 
        disorders that will likely not be resolved as long as 
        the child stays with his or her abductor.
          ``Although reintegration with family after many years 
        can be difficult for the child, this is often the only 
        chance the child will have to overcome the issues 
        caused by the abduction. Most children are found to 
        improve with the stability of being home with the 
        searching parent and attending therapy.''

    The essay goes on and says:

          ``Children of long-term abductions report a feeling 
        of resentment toward both parents, the abducting parent 
        for stealing them and the left-behind parent for not 
        rescuing them sooner. And the longer a child is on the 
        run, the more emotional damage is done.
          ``Abducted children have a high rate of seeking out 
        their left-behind parent as teenagers and adults, 
        always seeking reunification, even after many years 
        apart. This suggests that returning a child to a left-
        behind parent, even after many years, is often what is 
        best for the child and is what the child desires.''

    Shortly after my children's abduction in August 2016, I 
found much needed encouragement and hope from a press release 
dated November 18, 2015, from former Secretary of State John 
Kerry, and I am going to highlight three of that paragraphs of 
that statement.
    One, according to the press release,

        ``One of the Department of State's highest priorities 
        is the welfare of children involved in international 
        parental child abduction cases. And one of our most 
        effective tools for resolving these cases is the Hague 
        Abduction Convention.''

    Two,

        ``In 2014 Congress passed the Sean and David Goldman 
        International Child Abduction Prevention and Return 
        Act, which gives the Department of State additional 
        tools to advocate for the return of the abducted 
        children.''

    And three,

        ``There can be no safe haven for abductors.''

There can be no safe haven for abductors.
    So I am going to focus my testimony on those three topics.
    After fighting for over 2 years to secure the return of my 
children from Ecuador, I have found the following conclusions. 
One, The Hague Convention has not been an effective tool in 
bringing back my children from Ecuador. Two, the State 
Department has not enforced the tools provided by the Goldman 
Act. And three, the abductor seems to have been successful in 
finding a safe haven in Ecuador, a Hague partner country that 
has been listed as noncompliant by the State Department for 
several consecutive years.
    Let me talk about the Hague Convention. In principle, the 
legal remedy available through the Hague Convention of seeking 
to have the abducted children returned to their habitual place 
of residence aims to achieve a fair process.
    However, in noncompliant countries reality is rather 
different. As soon as the taking parent abducted my children to 
Ecuador, she filed lawsuits for divorce, parental rights, and 
child support, three different lawsuits. Classic case of forum 
shopping. Henceforth, she has retained 13 attorneys from nine 
different law firms in Ecuador in 2 years--13 attorneys from 
nine different law firms in Ecuador--none in the U.S.
    When we served her for divorce proceedings in the U.S., she 
did not even bother to retain an attorney from the United 
States. She did not appear in court and the court gave me full 
custody and parental rights of my children. But she continued 
on with the cases in Ecuador.
    The 13 Ecuadorian attorneys were not retained randomly. 
They are rather widely known for their political connections in 
Ecuador and questionable, unethical, illegal practices. In 
fact, the very first attorney, Monique Carriano (ph), chosen by 
the doctor (ph) in Ecuador, is the wife of the person who was 
acting at the time as the Minister of the Interior, the head of 
police. My attorneys warned me in Ecuador: Don't come to 
Ecuador, the wife of the Minister of the Interior has the 
police at her disposal, don't even bother coming to Ecuador.
    Subsequently, the taking mother retained the services of 
two attorneys, Maria Elena Pascal (ph) and Maria Gracia Pasmen 
(ph), who are known to be close friends with the person acting 
then as President of the Judicial Council of Ecuador, who is 
Gustavo Jalkh, who was recently ousted in Ecuador due to 
corruption.
    More recently, the taking parent retained the services of 
another attorney, Antonio Costa (ph), who has the reputation in 
Ecuador for allegedly engaging in bribing.
    It is worth emphasizing that we have documented a fairly 
large number of irregularities since day one in Ecuador. Let me 
share some of those irregularities with you as they pertain to 
the Hague Convention in Ecuador.
    In the lower court hearing in April 2018 the judge, 
Marianella Maldonado (ph), did not allow testimony from U.S. 
independent professionals that were going to testify via video 
conference. She just didn't allow them to testify. These 
professionals included family therapists and the guardian ad 
litem from Miami who were appointed by a Florida judge and they 
had firsthand knowledge of our family dynamics as they 
personally treated both parents and children for nearly 3 
years.
    The lower court judge did not allow the U.S. custody 
evaluator, who traveled personally to attend this meeting in 
Ecuador, this hearing in Ecuador. According to the U.S. custody 
evaluator, who had previously testified in other Hague 
proceedings in different countries, he found an extremely 
hostile environment in the Ecuadorian court.
    Most notably, the custody evaluator claimed, one, that the 
judge demonstrated to be utterly biased; two, that his passport 
was confiscated by the court until late in the afternoon, long 
after his testimony had concluded; and three, that he was 
threatened with prison in Ecuador for perjury. She thought he 
was not coming back to the U.S.
    The lower court judge did not recuse herself from hearing 
this case despite the fact that she maintains an intimate 
friendship with opposing counsel. Oddly enough, the judge and 
the abductor's attorneys were displaying public messages on 
Facebook of their mutual admiration and love precisely at the 
time when we were waiting to hear the hearing date for the 
hearing for the Hague case.
    The lower court judge had a short private meeting with my 
boys before the Hague hearing. Based on that meeting, she 
denied the restitution of my children because, she said, that 
was the desire of my boys.
    In July 2018, the court of appeals, consisting of three 
judges, did not allow an officer from the U.S. Embassy in 
Ecuador to attend the hearing. We don't know why. An officer 
from Ecuador's Central Authority was allowed to attend the 
lower court hearing.
    The panel of judges also met privately with my children, 
but this time it was with the presence of an independent child 
psychologist. After the hearing the panel of judges announced 
that a final ruling would be issued in writing in the following 
days. However, they did announce their decision to order 
protective measures in favor of my children in the form of 
therapies, which were necessary to reestablish the bond between 
children with their father in view of the mother's strong 
opposition.
    The panel of judges several days later issued their ruling 
in writing with protective measures included, denying 
restitution with my children because they considered that my 
children were well settled in Ecuador.
    So notwithstanding having dismissed the reason that the 
lower court judge had used to deny the restitution, the court 
of appeals proceeded to deny the restitution of my children 
based on the ``well settled'' exception.
    It is abundantly clear that this ruling was made in 
violation of Ecuador's Constitutional Court and the Hague 
Convention. In 2017, Ecuador's Constitutional Court ruled that 
the 1-year clock of the so-called ``well settled'' exception 
stops when a petition is received by the Ecuadorian Central 
Authority.
    Interestingly enough, the lower court judge did mention in 
her ruling that our petition had been filed within 1 year of 
the abduction. However, this material fact was notoriously 
missing from the court of appeals' ruling.
    As we speak, my attorney in Ecuador is filing today an 
appeal with the Constitutional Court in Ecuador.
    With respect to the Goldman Act, in April 2018, when the 
State Department published its latest Goldman annual report, 
Ecuador was listed yet again as a country that demonstrated a 
pattern of noncompliance. Subsequently, in July 2010, the State 
Department published its report on the specific actions taken 
against countries determined to have been engaged in a pattern 
of noncompliance in their 2018 Annual Report on International 
Child Abduction.
    The following is the actual transcript of the full report 
of actions taken by the State Department with respect to 
Ecuador. It consists of three paragraphs.
    One, the Department has reinforced efforts urging Ecuador 
to improve its convention implementation. In January 2018, the 
U.S. Central Authority increased the frequency of digital video 
conferences with the Ecuadorian Central Authority, Ecuadorian 
law enforcement officials, and the Public Defender's Office to 
monthly meetings.
    Two, the Department also plans to invite Ecuadorian 
officials to participate in a new International Visitor 
Leadership Program, scheduled for summer 2018. The 
International Visitor Leadership Program will specifically 
address the judicial components of processing and resolving 
Convention abduction cases.
    And, finally, the third paragraph of this action report 
says, in June 2018, U.S. Embassy Quito delivered a demarche to 
the Ecuadorian Ministry of Foreign Relations giving official 
notice that the Department cited Ecuador for demonstrating a 
pattern of noncompliance.
    Period. That is it. Those are all the actions taken with 
respect to Ecuador. And with all due respect, these actions, 
from the point of view of a left-behind parent, do not seem 
that impressive.
    Despite the fact that the Goldman Act provides powerful 
tools to the Department of State, it is evident that these 
tools are not being used. The State Department's actions report 
contains no sanctions whatsoever against Ecuador. In its action 
report, the State Department states that ``diplomatic 
engagement remains our most effective tool with all countries 
to assist in resolving international parental child abduction 
cases.''
    I have no doubt, as a left-behind parent, the intentions 
are good and that the desire is there, but enforcement is 
clearly lacking. Soft diplomacy alone is not getting the job 
done.
    Finally, with respect to actions that might be helpful in 
resolving the longstanding abduction of my children in Ecuador, 
I would like to say the following. Critics of The Hague 
Convention are of the opinion that the United States Government 
is powerless in its attempts to coerce foreign countries to 
obey or comply with The Hague Convention.
    To maximize impact and bring back American children 
abducted abroad, I personally believe that the U.S. Government 
should start announcing and implementing sanctions at the macro 
and micro level. This will send an unequivocal message to the 
world that the United States of America means business when it 
comes to bringing back its abducted children.
    So, specifically, the executive branch should consider 
taking the view that American children are being illegally 
retained in foreign countries as a result of an act of 
kidnapping. With implementation of economic sanctions, 
noncompliant countries will soon start complying with The Hague 
Convention and American children will finally be rescued and 
protected from the harmful effects of international parental 
abduction.
    Economic sanctions may have a huge impact almost overnight. 
The United States is Ecuador's principal trading partner. 
Conversely, Ecuador is the 42nd-largest trading partner of the 
U.S.
    Currently, Ecuador benefits from tariff-free entry into the 
United States for many of its products under the Generalized 
System of Preference, GSP. In Ecuador, the annual renewal of 
the GSP with the U.S. Is celebrated as a major victory. Under 
the current President of Ecuador, Moreno, Ecuador is now 
expressing interest not only in negotiating a new bilateral 
investment treaty with the U.S. But also is exploring a 
commercial trade agreement between both countries.
    It is worth mentioning that Ecuador is currently facing a 
fiscal deficit that is unsustainable, and the country lacks any 
significant monetary policy maneuvering because its official 
currency is the U.S. dollar.
    From an economic point of view, the country that seems 
powerless is Ecuador. If the U.S. Were to announce imminent 
economic sanctions against Ecuador, the days of noncompliance 
with the Hague treaty would be over.
    Two, the Department of Justice should consider taking swift 
and immediate action against abductors and accomplices.
    Back in 2016, when my children were kidnapped by their 
mother, I went personally to the FBI Miami field office, as I 
had read that the FBI had jurisdiction under the International 
Parental Kidnapping Act. A special agent, FBI agent, told me on 
that occasion that the protocol is for the FBI not to get 
involved until the Hague proceedings in the foreign country 
were finalized.
    More recently, another FBI agent, a special agent from 
Miami, emphatically told me: Juan, I am telling you right now, 
the taking mother won't be indicted unless you win the Hague 
case in Ecuador. So the FBI is not going to take any action 
unless I win the Hague case in Ecuador.
    To my surprise, the FBI agent also told me that the 
defenses under International Parental Kidnapping Act and The 
Hague Convention were the same. My understanding, however, is 
that International Parental Kidnapping Act has three defenses, 
none of which is the welfare exception.
    I would hope that the U.S. Law enforcement considers 
international parental kidnapping as a violent crime against 
innocent children and that the FBI becomes immediately involved 
without having to wait for Hague cases to be resolved overseas.
    Parental abductors usually count on a support network of 
family and friends who aid in the kidnapping and/or its 
continuation. These individuals should be investigated and 
eventually be prosecuted if found liable for aiding and 
abetting. These accomplices, whether they are family, friends, 
or even family attorneys, should be criminally charged with 
kidnapping and conspiracy to kidnap.
    Prosecuting these individuals makes sense not only because 
they will be held accountable for their crime but also because 
law enforcement may obtain valuable testimony against the 
abductor and/or other accomplices. More importantly, taking 
action against accomplices could, in some cases, persuade the 
abductor to voluntarily return children retained abroad.
    And, number three, the Department of State should consider 
implementing immigration sanctions against accomplices 
irrespective of whether the abducted children were taken to a 
Hague partner country or a non-Hague partner country.
    The State Department can build a database with the names of 
all the individuals involved in the illegal retention of 
American children overseas, including family, friends, 
attorneys, judges. Under this scenario, not only the abductor 
and his or her accomplices but also corrupt attorneys and 
judges could be properly interviewed when they visit an 
American consulate next time for their visa renewal.
    The problem in Ecuador is that corruption is endemic, 
especially in the judicial system. And this problem does not 
seem to be addressed by the State Department's action report on 
parental abduction.
    In Ecuador, judges are known for accepting bribes from 
unscrupulous attorneys and their clients. At the moment, there 
is no constitutional court in Ecuador because all of its 
judges--nine judges--were recently ousted due to corruption.
    Furthermore, a national court judge who was part of the 
panel of judges that heard my Hague case is currently being 
investigated in Ecuador after a journalist published a report 
that her daughter has paid $1,000 in income taxes in the past 
10 years--not $1,000 every year, but in the whole 10-year 
period, $1,000 in income taxes--despite having inflows of 
several million dollars in her bank account.
    The possibility of denying U.S. Visas to these individuals 
can become an extremely powerful tool in preventing and 
resolving international parental abduction. While legislation 
may be needed, please, Mr. Chairman and Members of Congress, 
consider implementing immigration sanctions as soon as possible 
against abductors and their accomplices irrespective of the 
country of destination where the abductor has taken our 
children.
    I would like to finish my testimony by emphasizing that 
every day counts. Every single day counts. Time does not erase 
our memories or heal our pain. Time triggers an awful lot of 
daily reminders. Time is of the essence, and now is the time to 
bring our children home. The childhood of our children is in 
your hands. The fate of our children is in your hands.
    My special thanks to Michael for his extraordinary work at 
the Office of Children's Issues and to Allison for her 
unconditional support throughout this difficult journey.
    And last but not least, I would like to send a brief 
message to my children: I love you guys. I am here for you 
always.
    Thank you.
    [The prepared statement of Mr. Garaicoa follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                        ----------                              

    Mr. Smith. Thank you, Mr. Garaicoa, for that very powerful 
testimony and your recommendations for additional actions. I 
think they were very well-founded.
    Ms. Littleton? I yield such time as you may consume.

 STATEMENT OF MS. MICHELLE LITTLETON, MOTHER OF THREE CHILDREN 
                      ABDUCTED TO LEBANON

    Ms. Littleton. Chairman Chris Smith, Congressman Bill 
Posey, and distinguished members of the committee, thank you 
for holding this important and urgent hearing on international 
child abduction.
    My name is Michelle Littleton, and my three beautiful 
children--Ascila, Leilah, and Yousef--were kidnapped from their 
hometown of Mission Viejo, California, by their father, Mazen 
Fawzi Matar, on January the 4th, 2017.
    It was the middle of the school year on what was supposed 
to be a 10-day vacation over Christmas break. While most 
children were returning to school, my children were boarding a 
plane and being kidnapped to war-torn Lebanon, where dozens of 
other American children had already been abducted to and never 
returned.
    For 1 year prior to the abduction, my family fought to 
prevent this nightmare from happening by pleading with Judge 
James Waltz of Orange County to prevent the trip. Eventually, 
Judge Waltz felt I was just being difficult and took my custody 
away so my ex could obtain passports without my consent. After 
he obtained the passports, I had to agree to the trip to have 
partial custody back.
    Judge Waltz should have listened to my desperate warnings. 
By not researching the Lebanese history of non-returns, he 
failed to protect the very United States citizens he serves.
    All judges should have awareness of IPCA and strongly 
consider the risks involved when approving international 
vacations, especially when one parent is communicating fears of 
abduction and the data is available to show that return from a 
particular country is extremely difficult or impossible.
    My worst fears for both of my daughters' safety and well-
being became real when I requested the State Department perform 
a welfare and whereabouts visit. During the visit, the 
grandfather stated that my girls are almost of age to be 
married. They were 12 and 13 at the time.
    There have been times when the Embassy could not visit the 
children, either because it was not safe for the staff to 
travel to Tripoli or because my ex-husband denied access. I 
have gone several months at a time without being able to 
contact my children. I cannot imagine the heartache my children 
must be feeling, especially my son, Yousef, who was only 5 
years old when he was abducted and ripped out of my arms.
    With the help of my Lebanese lawyer, Mhomad Ayoubi, I have 
been able to slowly but successfully navigate through the 
foreign and complex Lebanese court system. However, 2 years 
into my fight and I am still up against my ex-husband's delay 
tactics from Lebanon, enabling my husband's tricks.
    He has filed appeals to every victory I have won. I have 
even won full custody in Lebanon. The Lebanese civil and 
execution courts have ordered the children to be returned to me 
in the United States immediately. Not surprisingly, my ex filed 
an objection to the execution enforcement order based on what 
he calls ``no jurisdiction'' for the Lebanese authorities to 
enforce their own return order.
    It has been 3 weeks since he filed the objection to the 
enforcement, and he may be able to run the clock for another 8 
weeks or more with frivolous delay appeals.
    I am grateful that Lebanon has recognized the situation for 
what it is--a kidnapping--and issued orders for my children's 
return to their home here in the United States. But my ex, who 
is a U.S. Citizen, is making a mockery of Lebanese courts, U.S. 
Courts, and, worst of all, putting at risk the lives of our 
children. This should not be tolerated by the Government of 
Lebanon or the United States.
    I have not been able to see my children in 2 long years. I 
have asked if I could travel to see my children, but I am told 
it is too dangerous. This is my painful reality and hell that I 
have been living for 2 years.
    I want my children home for the holiday more than anything 
in this world, and me and my children have the right to be 
together now, right here on American soil. It must end at once, 
with my children at home with me.
    This could be a watershed moment for U.S.-Lebanon 
relations. Although the United States has had dozens of 
children abducted to Lebanon, I do not know of any cases before 
mine with a court order for return from a Lebanese court. In 
fact, there have not been any court-ordered returns ever 
reported to the State Department. Zero.
    With the current court orders in place in my case, Lebanon 
could for the first time return an abducted child to the United 
States. It would be a timely and welcome gesture of cooperation 
between Lebanon and the United States as we seek justice for 
children abducted, wrongfully retained in either country. It 
goes both ways.
    The State Department and law enforcement have been so 
helpful in my case, and I am thankful that they have even more 
tools at their disposal in the Goldman Act if Lebanon fails to 
enforce the return orders they have issued. Almost $200 million 
and so much more is provided in aid to keep Lebanon safe and 
strong. So much is at stake.
    Isn't it time for Lebanon to enforce the return orders that 
they have already acknowledged to send my children home? I call 
on the State Department to use every tool at its disposal to 
bring these American citizen children home immediately. And I 
appeal to Lebanon to, please, quickly enforce the return orders 
Lebanon has justly upheld. Set the example so that any parent 
now considering the child abuse that is child abduction will 
know that Lebanon does not aid kidnappers.
    I have one message for my children: I love you, and I am 
fighting for you, and I cannot wait for you to come home.
    Thank you.
    [The prepared statement of Ms. Littleton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                     ----------                              

    Mr. Smith. Ms. Littleton, thank you so very much for that 
strong testimony, for the appeal to our Government to use every 
power at its disposal to use every tool to bring these American 
children home immediately.
    I think that is part of the message that we are trying to 
send to the White House and to the Department of State, that 
you have tools in that toolbox that remain unused, and because 
of that, the people on the other side of this issue--and that 
is to say, the kidnappers--are able to game the system in such 
a way that they stall, they play out, buy years, and at the end 
of the day, your children and the children of so many Americans 
never come home while they are children--maybe as adults, but 
certainly not as children.
    So I do have a few questions I would like to ask.
    Both, Jeffrey, you and Mr. Garaicoa mentioned that you won 
in court--no, you mentioned you won in court, Ms. Littleton, 
that you won custody. On the enforcement issue, that seems to 
be perhaps one of the biggest Achilles' heels in all of this. 
Win, win, win--even David Goldman, on whose case I worked, he 
was in a situation where he would win cases and then they would 
just appeal. It went on for years. And it gets to the point 
where you spend so much money and time and effort, they hope 
that you will just pack your bags and go home, which you don't 
do and so many others don't do. They double down and try even 
harder.
    But at the end of the day, you get things like the Article 
13(b) exception to return, which was used in the Cook case, 
saying, as they did in Japan, that living in an apartment is a 
``grave threat to the children's well-being,'' which is 
absolute nonsense. A lot of Americans live in apartments. There 
is nothing wrong with that. It is a great way of--if you don't 
have enough money for a mortgage or you are more transient, of 
just that is where you decide to live. But in his case, he had 
to spend down so much to get to the point where the very home, 
his abode, was a simple apartment. And then that is used 
against him in court again.
    So, Jeffrey, you might want to speak to that issue, because 
I think that is utterly perverse, that a court or any judicial 
or governmental body would use that kind of logic.
    And on the enforcement issue, as you mentioned, Mr. 
Garaicoa, about the intimidation factor in the courts. You 
talked about the special--how did you put it? Just let me get 
it correct. The custody evaluator said that on the case of the 
doctor from Miami that he was threatened with prison in Ecuador 
for perjury.
    The threat, however strongly it is made, of possible 
prosecution can have a chilling effect on what happens after 
that. And that goes for judges as well. If they feel they may 
be subjected to that kind of abuse, they may rule the other 
way.
    So you might want to speak to that as well. Because I think 
the idea of restitution is a very dangerous tool in the hands 
of a kidnapper and an abductor.
    And then, finally--and then I will go to Mr. Posey, and I 
do have some additional questions--just speak to the issue of 
if any of you can explain or give any insight as to why you 
think both the Obama administration and now the Trump 
administration have not used the tools that were given to them.
    When I authored the Goldman Act, we took many of the 
prescribed sanctions that were embedded in the International 
Religious Freedom Act as a very good template on what we can do 
on a human rights issue. And this human rights issue is used 
against Americans and American parents who are left behind. And 
it seemed to me that we had a well-founded group of sanctions. 
And demarche was to be the beginning, not the beginning, the 
middle, and the end and the only thing that is employed. It was 
just meant to be the warning shot before all the other 
sanctions begin to kick in.
    So if you could speak to that.
    And then you have all, in your testimonies, made an appeal 
for that, but if you could also just, you know, in a couple of 
sentences or two, if President Trump were sitting here, if 
Secretary Pompeo and others in the chain of command were 
sitting here--because they have to execute the laws, they have 
to implement the laws. We write them. But we do oversight as 
well, and that is what this is, to say, please, Mr. President, 
just implement the law.
    And as you say with the GSP, Mr. Garaicoa, if GSP was put 
on the chopping block, the abductions would go away. They would 
stop this horrific game, this dangerous game, this ugly game of 
siding with abduction and with kidnappers.
    And I will go to you.
    Mr. Morehouse. So, in response to the question regarding 
how it works in the courts in Japan and the exceptions they are 
creating, it goes beyond just The Hague abduction convention 
and really falls all under the continuity principle, where they 
will not change current circumstances and really just ignore 
how the child ended up with the kidnapping parent.
    We saw this play out in Mr. Cook's case, where they 
engineered the end conclusion that they wanted to get to, which 
was to not return the children, by crafting a best-interest-of-
the-child argument based on living in an apartment. And as you 
pointed out a moment ago, many Americans live in apartments. My 
son, when he was born, we lived in an apartment in New York. It 
is a very common part of American society and, I will note, 
also in Japanese society. So it is really kind of a hollow 
argument that they made there.
    In my own case, as you may or may not recall, the last case 
took a year. We thought we had a real chance at proving that he 
had a great life available to him here in the United States at 
home. Went through all of the motions. I had to present to 
court investigators pictures of my house, my neighborhood, 
square footage, all of these great attributes of living in the 
Seattle area. And they just sat there and marveled at 
photographs of a very average American house, discussed that, 
asked me several questions, with no real intent of doing any 
judicial investigative process.
    It was all pre-engineered, even to the point of the fact 
where they asked for us to present a reunification process for 
Mochi and me. And we drew it out in a very Japanese style. It 
was going to span about a year to reunite him, which truly is 
absurd under the circumstances, but I was willing to go to that 
extent. They never even looked at it seriously in their ruling.
    They simply ruled that the U.S. Custody order that I have 
had since 2008 has legal effect in Japan, denied her all 
custody rights under Japanese law. So, ergo, I am the sole 
custodial parent of our son, both in the U.S. And Japan, and 
they are unwilling to enforce that.
    And then simply on the unwillingness to reunite, I think 
that was based on, as I testified earlier, he expressed his 
true opinion months earlier to an attorney. They had many 
months to sanitize that response and provide an answer for what 
the court wanted to hear in order to justify not reuniting 
Mochi and me. Just another example of how the continuity 
principle works in Japan.
    Mr. Smith. Thank you.
    Mr. Garaicoa. Mr. Chairman, with respect to the 
intimidation issue in the lower court in Ecuador, the U.S. 
Custody evaluator, Dr. Miguel Firpi from Miami, is a very well 
well-known professional that has over 20 to 30 years' 
experience in hearings, and he is one of the few people 
actually in Miami who has gone to different countries to appear 
in Hague cases.
    And he called me the following day, and he said: Mr. 
Garaicoa, I cannot explain this to you, but I have never, ever 
experienced something like what happened or transpired 
yesterday in Quito. I am glad to be back in Miami. At one 
moment, I thought I was not coming back. The opposing counsel 
threatened me with calling the district attorney's office that 
day, at that time in the afternoon in Ecuador. I was threatened 
that my passport would not be given back to me and that I would 
not go back to the U.S. Because you are committing perjury.
    He was not--and this too--the judge did not contain the 
opposing counsel. She kept quiet. So Dr. Firpi told me, I could 
not give my testimony in a free manner. And to my surprise, the 
other professionals that were about to testify via 
videoconference were not allowed to testify. And I am sorry to 
tell you, but the judge was completely biased, and this is not 
looking good.
    The hearing that day did not finish, did not end, because 
there were other witnesses in Ecuador. But he told me, by the 
day this hearing is over, chances are that the judge is going 
to rule against you. And that is, in fact, what happened.
    Dr. Firpi told me just last week when I knew about this 
hearing in Congress, he told me that he would be willing--more 
than willing to testify here at some point. And I think it 
would be interesting for you to hear from an independent 
professional how a foreign court works and whether that court 
is being fair or unfair. And he is willing to come or to 
testify via videoconference at any moment in time.
    Ms. Littleton. Thank you, Chairman.
    I think that, in general, it is very easy to look at 
Lebanon and recognize that they are not compliant. So far, no 
children have ever been returned from Lebanon. I think we are 
moving forward into a better space and relationship with them. 
They are definitely putting the right foot forward. They are 
here today. But more has to be done.
    And the fact that there has never been a child returned 
from Lebanon is frightening, as a mother who has daughters who 
could be married off. And we know that because the welfare and 
whereabouts visit that the Embassy did proved that. So, I mean, 
are we going to send them another demarche when my daughter is 
married off?
    Mr. Smith. Mr. Garrett?
    Mr. Garrett. Mr. Chairman, the only people more frustrated 
in this room than perhaps yourself and your staff, than me, are 
the ones at that table. And I want to concede that on the front 
end.
    Having said that--and I am leaving this body in just a few 
short weeks, and there are a lot of reasons I will be glad to 
be gone. And one of them is that we sit in this room oftentimes 
and identify real problems with real victims, many of whom are 
human beings, every one of whom has import in my world view, to 
include not only yourselves but your children, and we talk at 
these problems and we don't solve them.
    Now, I want to commend the chair of this subcommittee, Mr. 
Smith. Goldman has the teeth to make this happen. But there are 
435 Members, 441 including non-voting Members, in this chamber 
and 100 across the hall, and there is 1 guy sitting in the 
White House. And everything in this world, tragically, becomes 
a carrot and a stick. And we have the stick to make the 
Japanese and everyone else play ball if we are willing to use 
it.
    What I have seen in so many areas--and I shall not 
digress--as it relates to U.S. Policy with regard to anything 
from who we support in conflict zones abroad, to whether or not 
we put a priority on the sanctity of your familial 
relationships with the people who you love in a way that we 
can't understand unless they are our own family members, we 
subrogate oftentimes that which is seemingly micro for the 
macro. My submission would be that if we do the small things 
right the big things generally will tend to take care of 
themselves.
    But I hope that somebody in the executive branch is 
watching this, because they can fix this right now simply by 
suggesting that 12 F-35s might become 10, or what have you. 
These things aren't terribly important, tragically, to the 
people in the executive branch, whether in this country or 
abroad. If they were more important, I would bet we would see 
some movement.
    Having said all of that, again, this is not in any way to 
impugn the folks in this room. I think Mr. Smith has done all 
that can be done over a number of years, as have each of you. 
But these are things that we need to get on the radar of the 
people who can make the changes immediately. And, again, I am 
not trying to lecture you. You all know this.
    I can't begin to have empathy, praise God, for each one of 
you and your suffering. But it matters. It ought to matter. And 
if Congress were to decide that we were going to fix this and 
we really leaned into it, it would probably be fixed in a few 
years. We can fix this at Pennsylvania Avenue now. And so I 
hope someone is looking. I hope a phone call is made.
    Again, I understand that there are courts, et cetera, of 
basic jurisdiction in various places, but some of these cases 
that you are describing, cut and dried, right? Agreements on 
both sides of the water.
    So I wish that my words mattered. I hate mere words. But I 
commend you for what you are doing. To the extent that I am 
able to help during my time here and after, I will.
    This is really, truly symptomatic of mistakes that we make, 
I think, in the foreign policy realm by virtue of prioritizing 
relations, say, with Japan over relations between a mother and 
child, father and child. And I, again, think that you can have 
good relations with our colleagues in the global community and 
prioritize these familial relations, and, candidly, I don't 
think they are mutually exclusive.
    And, secondarily, I think they might be even better if we 
showed that we actually adhere to the values that we say we do. 
Because that is where I think we fail in the grand scheme. 
People are looking to see what this country does, not what it 
says. And what we are saying is all the right stuff; what we 
are doing is not generating the results.
    So I thank you and yield back. And I genuinely and 
sincerely thank you for the privilege of having been able to 
work with you. And, again, I wish condolences meant anything. 
It is tragic, what you all are going through, and I hope that 
it sees a rapid end. But I fear that until we attitudinally 
shift how we do business internationally that it will continue.
    Thank you.
    Mr. Smith. I thank you, Mr. Garrett. And thank you for your 
service on this subcommittee and your profound commitment to 
human rights.
    Mr. Posey?
    Mr. Posey. Thank you again very much, Mr. Chairman.
    And, again, I would be remiss if I didn't state how 
disappointed I am that the State Department is not here and 
can't help answer or validate some questions that have arisen 
because of the testimony that we have heard here today.
    For example, the last time our staff and I met with Ms. 
Littleton, the Department of State was there, and we talked 
about a number of different approaches that they might try to 
execute to make these things happen a little bit more 
efficiently. They promised to update us, and they did, in fact, 
recontact us and tell us that the local law enforcement had 
gone to the children's school to execute an order, and they 
planned, actually, to take the kids into possession and return 
them to you. But can you just imagine, on that particular day, 
the kidnapper didn't let the children go to school. And he 
refiled to appeal every other finding.
    So, you know, I think the political pressure definitely 
needs to be applied at a higher level. As was mentioned here, 
when we interface with the local authorities, there is 
obviously more than a little bit of corruption, and they are 
not on our side, like so much of the international community.
    Do you know, each of you, if any criminal charges have been 
filed against the kidnapper?
    Mr. Morehouse. Yes, I am aware of criminal charges being 
filed.
    Mr. Posey. Have they been filed? It has been 8 years.
    Mr. Morehouse. Yes. Yes.
    Mr. Posey. Have they been filed?
    Mr. Morehouse. Yes.
    Mr. Posey. Is your ex wanted by the FBI for interstate 
transportation of children illegally? Or what is the charge?
    Mr. Morehouse. It is under IPKCA, the International 
Parental Kidnapping Crime Act, and passport fraud.
    Mr. Posey. Okay. How severe is the penalty for that?
    Mr. Morehouse. I would have to look at the statute, but 
they are extraditable because it does meet the comity--it meets 
Japanese law under the interpretation of the Department of 
Justice.
    Mr. Posey. Because that is pretty significant. I think that 
got left out of the testimonies here.
    Sir, your case?
    Mr. Garaicoa. To my knowledge, in Ecuador, or people who 
have found a safe haven in Ecuador have not been criminally 
charged by the Department of Justice here in the U.S.
    Mr. Posey. But where were your children kidnapped?
    Mr. Garaicoa. My children were kidnapped to Ecuador. They 
were taken from Miami to Ecuador by their mother.
    Mr. Posey. Well, you know, it----
    Mr. Garaicoa. And I met with the FBI in Miami, and they 
told me they are not going to do anything unless I win the 
Hague case in Ecuador.
    Mr. Posey. Okay. So you have to win a case against Ecuador, 
a foreign court, before. And I wonder why your FBI office is 
different from your FBI office.
    Mr. Morehouse. If I could address that briefly.
    My colleagues and I have met in the past with the Office of 
the Attorney General at DOJ--not directly with the office, but 
underneath in the building. And we have cited the fact that 
there has been gross inconsistency in the FBI throughout the 
country with regard to responding to parents of kidnapping 
cases. I have seen instances as he has described as well as 
parents being turned away, claiming that the parent needed to 
file local charges first.
    Nowhere under the Federal statue does it require any sort 
of prerequisite. So I do not know if it is a fundamental lack 
in training, policy, or just a desire to push parents away 
because, in the end, these cases are hard to prosecute and they 
would rather put resources elsewhere. But it is important to 
actually get this on the record and get it cited.
    And the last thing I will just add in response to that is 
our coalition of organizations has asked for the past several 
years for DOJ to provide statistics on how many cases they have 
pursued and indicted under the International Parental 
Kidnapping Crime Act of 1993. To date, they have declined, 
stating that they do not collate those numbers, and advised us 
to reach out to each district office throughout the country. 
Frankly, I think that is kind of a nonsense response, but that 
is what they tell us.
    Mr. Posey. Thank you. Yeah. I am not a lawyer, but I think 
your court proceedings make it very clear that the children are 
basically being kidnapped out of Miami. And I am shocked that 
you couldn't get any charges filed and he could.
    Ms. Littleton, how about you?
    Ms. Littleton. There is a Federal warrant from the FBI for 
international parental childhood abduction. There is a warrant.
    Mr. Posey. There is a warrant. Okay. So two out of three.
    Mr. Morehouse. But, if I could just add to that, in my 
experience in knowing hundreds of cases, we are the outliers 
that actually have received response and indictments by the 
Department of Justice. It is highly unusual.
    Mr. Posey. Okay. Thank you.
    And, again, you wonder what the parents are telling their 
home countries too, you know, that are obviously taking the 
kidnappers' side. And it would be like, if you went over there 
and kidnapped your kids back and brought them over here, they 
would be filing motions saying that you molested the children 
and all kinds of terrible things, and why we should send them 
back to the country with them. I mean, so, you know, it is not 
clear-cut, probably, to the other side of the authorities 
either. They don't hear your side; they are obviously just 
getting the other side.
    Do we know if there are children in the United States who 
have been abducted in other countries by Americans and are held 
here and the people from the other countries are trying to do 
just the opposite? Are we aware of that?
    Mr. Morehouse. Yes. There are cases where children have 
been kidnapped from foreign countries to the United States.
    Mr. Posey. How many?
    Mr. Morehouse. I don't have the exact figures on that. I do 
know the Department of State publishes those numbers, or did in 
the past, on their Web site prior to the Goldman Act. And they 
would list, year by year, the number of incoming cases, as they 
call it.
    Mr. Posey. Okay. Do you know how the status works on any of 
those? Do we respect a foreign court's jurisdiction?
    Mr. Morehouse. My understanding from meetings with the 
Department of State on that topic is that is handled by the 
courts that adjudicate it. And the general answer could be yes, 
but I think, as you pointed out, they get into the details and 
the he-said-she-said component. So one could make an argument 
that we may not be perfect on this as well.
    However, I do think our American rule of law does apply, 
and hearsay is probably not allowed in those jurisdictions the 
way it is in Japan and, I presume, in Lebanon and Ecuador and 
many other countries that stack the deck against American 
citizens when our children are kidnapped abroad.
    Mr. Posey. Yeah, you would think there should be maybe an 
international court, but then you see what happens at the U.N. 
Same thing. You know, it is all against us.
    Just out of curiosity, is Judge Waltz still on the bench?
    Ms. Littleton. Yes, he is.
    Mr. Posey. You would not have had a problem were it not for 
his poor judgment, if I understand your testimony correctly.
    Ms. Littleton. That is correct.
    Mr. Posey. Is he aware of what this turned into?
    Ms. Littleton. He is fully aware, and he actually finished 
doing the final court orders, the final return orders that we 
submitted to the Lebanese civil court that Lebanon has 
acknowledged.
    So he has tried to make it right or rectify it. But I have 
been left to the fate of my lawyer in Lebanon using the court 
documents that Judge Waltz is now sending to have my children 
returned.
    Mr. Posey. And he seems like--your attorney there, I was on 
the phone with you one time where we did a conference call, and 
he seemed pretty confident--seems confident and competent. And 
I guess he did get everybody to the point they wanted to go, 
until the local police muffed the execution of the order for 
whatever reason, or however reason the kidnapper knew about it. 
And, you know, that is kind of sad.
    Mr. Chairman, I think it is really clear that we need to 
get some level of the State Department involved, at maybe a 
higher level that would actually want to show up at a hearing 
and see what was said and be up to date on this stuff.
    And I think, to the point of the witnesses today, clearly, 
the local level of governments are not going to be responsive. 
I don't think we are going to expect to see any change of 
behavior on their part unless we get higher-level interaction 
on our part. And they have all mentioned the possibility of 
sanctions being the key.
    And, I mean, this is not on the radar screen of most 
Americans, but if you know about one of these cases and you 
know about the injustice of one of these cases and you think 
about the children of these cases, it should shoot far up the 
interest screen of any agency, particularly our Department of 
State. But, you know, I don't have an answer right now, except 
some of those things that I have expressed that we should 
pursue further with our Department of State.
    But I just want to thank you for your interest in this, as 
you have so many other humanitarian issues and stood on so much 
principle for the betterment of mankind. I am deeply grateful 
to you, sir.
    Mr. Smith. Mr. Posey, thank you very much. And thank you 
for being such a great advocate for Ms. Littleton. I think that 
shows a clear concern for, as she put it, the hell that she is 
living, 2 years now, having her children abducted.
    You did mention in your testimony, as we have seen so many 
times all over the world, you have won case after case, you 
have full custody, and yet there is always the frivolous appeal 
that follows by your ex.
    And my appeal from this chair now to Lebanon, as you 
pointed out here:

        ``With the current court orders in place in my case, 
        Lebanon could for the first time return an abducted 
        child to the United States. It would be a timely and 
        welcome gesture of cooperation between Lebanon and the 
        United States as we seek justice for children abducted 
        and wrongfully retained in either country.''

    I mean, that is a level-headed appeal to a country with 
whom we have strong relations and friendship, notwithstanding 
some other issues that complicate it at times. But this seems 
to be, on a purely humanitarian basis, something they could do 
tomorrow--enforce the orders. And I hope that they will take 
that from you being here today.
    And I would point out and I am grateful, there have been 
many members of the press here today. C-SPAN has also covered 
this, and we are deeply grateful for that, because that allows 
the American people to hear you and to hear what American 
parents are suffering because of parental child abduction.
    And, Mr. Posey, as you pointed out, we have had the State 
Department here before. We have had the high-level individuals. 
For the record, when I introduced this, it took 5 years to get 
passed. The Obama administration was opposed to it when Hillary 
Clinton was the Secretary of State. When John Kerry got that 
position things changed within State, and I am grateful to him 
for that, because we would pass it in the House and it would 
languish and die in the Senate. And it took 5 years to get the 
Goldman Act enacted into law.
    But a law is only as good as its enforcement. And, 
certainly, the prevention part of it is doing better and doing 
well; not as good as we would like it to be. But the second 
part, the returns of children, has been a failure.
    And it is only a failure due to lack of enforcement. Again, 
as Juan said earlier, if we would just say GSP is at risk and 
we mean it, we would have their attention full bore, and they 
would make a change in these dilatory tactics as well as their 
injustices being meted out to left-behind parents.
    And, again, there is always the issue of reciprocity. We do 
try in this country to honor our Hague Convention obligations, 
and that is to non-Hague countries as well. But our idea is 
that it is the rule of law. Custody needs to be determined at 
the place of habitual residence, not in some far-off court of 
law somewhere, where a judge may not be Hague-literate and not 
know the issues like parental alienation and the damage it does 
do to children.
    So we need, I think, perhaps, to do a letter to President 
Trump and include your testimonies and some of the other very, 
very high-profile cases that make the case for robust and 
rigorous enforcement. And it also ought to go to Secretary 
Pompeo as well.
    I have raised it at the highest levels myself, but when you 
hear what you had to say here today, you can't help but be 
moved mightily to do far more. And, hopefully, the President 
will have that same view. Enforcement has been the problem 
since enactment, and it is time for that to change. The pivot 
day should be today.
    So if any of my distinguished panelists or any of you 
would--any final comments?
    Okay. So thank you. We will work with you. It is 
bipartisan, I am happy to say. And my hope is that your 
children will be home soon. God bless you.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
